<html>
<title> - PRESIDENT CLINTON'S FISCAL YEAR 2001 FOREIGN ASSISTANCE BUDGET REQUEST</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




 PRESIDENT CLINTON'S FISCAL YEAR 2001 FOREIGN ASSISTANCE BUDGET REQUEST

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 15, 2000

                               __________

                           Serial No. 106-150

                               __________

    Printed for the use of the Committee on International Relations


        Available via the World Wide Web: http://www.house.gov/
                  international<INF>--</INF>relations

                                 ______


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
67-449                     WASHINGTON : 2000


                  COMMITTEE ON INTERNATIONAL RELATIONS


                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           MATTHEW G. MARTINEZ, California
ILEANA ROS-LEHTINEN, Florida         DONALD M. PAYNE, New Jersey
CASS BALLENGER, North Carolina       ROBERT MENENDEZ, New Jersey
DANA ROHRABACHER, California         SHERROD BROWN, Ohio
DONALD A. MANZULLO, Illinois         CYNTHIA A. McKINNEY, Georgia
EDWARD R. ROYCE, California          ALCEE L. HASTINGS, Florida
PETER T. KING, New York              PAT DANNER, Missouri
STEVE CHABOT, Ohio                   EARL F. HILLIARD, Alabama
MARSHALL ``MARK'' SANFORD, South     BRAD SHERMAN, California
    Carolina                         ROBERT WEXLER, Florida
MATT SALMON, Arizona                 STEVEN R. ROTHMAN, New Jersey
AMO HOUGHTON, New York               JIM DAVIS, Florida
TOM CAMPBELL, California             EARL POMEROY, North Dakota
JOHN M. McHUGH, New York             WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   GREGORY W. MEEKS, New York
RICHARD BURR, North Carolina         BARBARA LEE, California
PAUL E. GILLMOR, Ohio                JOSEPH CROWLEY, New York
GEORGE RADANOVICH, California        JOSEPH M. HOEFFEL, Pennsylvania
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
               Thomas Callahan, Professional Staff Member
                     Jill N. Quinn, Staff Associate

                            C O N T E N T S

                              ----------                              

                                WITNESS

                                                                   Page

The Honorable J. Brady Anderson, Administrator, U.S. Agency for 
  International Development......................................     7

                                APPENDIX

Members' Prepared Statements:

The Honorable Benjamin A. Gilman, a Representative in Congress 
  from New York and Chairman, Committee on International 
  Relations......................................................    34
The Honorable George P. Radanovich, a Representative in Congress 
  from California................................................    36
The Honorable Sherrod Brown, a Representative in Congress from 
  Ohio...........................................................    38

Witness' Prepared Statement:

The Honorable J. Brady Anderson, Administrator, U.S. Agency for 
  International Development......................................    42

 
 PRESIDENT CLINTON'S FISCAL YEAR 2001 FOREIGN ASSISTANCE BUDGET REQUEST

                              ----------                              


                       WEDNESDAY, MARCH 15, 2000

                          House of Representatives,
                      Committee on International Relations,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10 a.m., in room 
2175, Rayburn House Office Building, Hon. Benjamin A. Gilman 
(Chairman of the Committee) presiding.
    Mr. Gilman. Our Committee will come to order. Members, 
please take their seats.
    Mr. Administrator, we are pleased to have this opportunity 
to meet with you to discuss the coming year's budget for 
foreign assistance. Before we go too far in the specific budget 
items and program objectives, I would like to share with you 
and my colleagues a fundamental belief.
    I believe that foreign assistance is important, not only 
for what it does to help the people of other nations, but also 
what it says about the people of our Nation. We live in a time 
that historians may well call the beginning of a Golden Age. We 
are perched on the cusp of a revolution in information, 
communications and productivity. America sets the tempo for 
this revolution and we stand poised to reap its benefits.
    We should not be embarrassed about those achievements. 
Indeed, we can be proud of our forbearers whose hard work and 
sacrifice brought us to this privileged position. That is the 
good news.
    But let us not forget that only a tiny fraction of the 
world's burgeoning population even knows the meaning of the 
words internet or cell phone or stock options. The vast 
majority of our brothers and sisters are more familiar with 
concepts like hunger and disease and violence.
    What will distinguish our world as we enter what may become 
a second American century from the world of ancient Rome? 
Rome's empire rotted and collapsed from within, corrupted by 
arrogance and mounting disregard for the people it governed. I 
am confident that our Nation will not follow Rome's example. We 
have defied the patterns of history before, for, as de 
Tocqueville noted, we are a nation of paradoxes. We are 
peaceful even as we create more destructive weapons. We are 
communal in our jealous protection of individuality. And we are 
generous even as we avidly pursue great riches.
    The scholar Joseph Joffe speculates in a 1997 article that, 
``the key to our Nation's success is generosity. Somehow our 
Nation has remained unchallenged despite victory, defying the 
laws of real politic. No one is ganging up on the hegemon. But 
it will have to keep providing order and security for others.'' 
He went on to say, ``Only by doing good, can it do well.''
    No one wants to waste the taxpayers' dollars and many 
observers have questioned the effectiveness of some of our 
development efforts. Carol Lancaster, a former USAID Deputy 
Administrator warned that, ``A basic lesson is that while 
foreign aid can promote development, it doesn't guarantee 
development and more aid does not necessarily buy more 
development. Indeed, unless it carefully avoids reinforcing 
flawed policies and poor governance weakening institutions and 
creating dependence, more aid can buy less development.''
    No one would argue that helping others is easy.Indeed, it 
is far more within our power to destroy a nation than to lift 
it up, but the uplifting of others is inextricably tied to the 
development of our own nation.
    Again, we thank you, Mr. Anderson, and we look forward to 
your testimony. We thank you for your service, and now I would 
like to call on our Ranking Minority Member, Mr. Gejdenson.
    Mr. Gejdenson. Thank you very much, Mr. Chairman. I join 
with you in welcoming our guest, former Ambassador and now the 
head of AID, obviously taking on and continuing the great work 
that Brian Atwood did there. We, as a country, I think can be 
proud of the work that has been done by AID. It almost covers 
two tracks, in one sense, our altruistic commitment to helping 
our fellow man on this planet, men and women, when you see the 
kind of disaster we have recently seen in Africa from the 
flooding, from war in Sierra Leone and Congo and other areas. 
Obviously, Americans want to respond.
    But for those who may be less inclined toward simply the 
humanitarian effort, there is a payback here economically. Many 
of the countries that formerly were our largest recipients of 
grain today are our largest customers for American agricultural 
products. As we have helped AIDS in sub-Saharan Africa, in 
particular, the opportunistic diseases that threaten Africans 
that come along with AIDS, transmit very easily to Americans. 
This globalization is seen on a daily basis, whether it is the 
economic or the health side of it.
    Last year, those of us in the northeast who were confronted 
with West Nile virus disease that was brought here somehow and 
immediately had an impact taking the lives of several people in 
the northeast and still continues to be a danger. So that even 
if we wanted to, it would be impossible to withdraw from the 
world.
    I think of the things we can be proudest of is the fact 
that America, even when it is challenged, even when times are 
tough, has continued to help those less fortunate around the 
world. Today we find ourselves the most affluent society in the 
world, an economy that has had the longest continuing growth. 
It is important that we continue to learn from the past, try to 
get rid of mistakes and failings, places where we may have made 
mistakes, learn from those and learn to do even a better job 
helping people to try to achieve a better life for themselves 
and their children. So I am very happy to have our friend here 
and look forward to hearing his testimony.
    Mr. Gilman. Any other Members seeking recognition? If not, 
Mr. Anderson. The gentleman is recognized.
    Mr. Brown. Thank you for holding this hearing on the 
President's 2001 budget request for international affairs. I 
would like to make a brief opening statement, but I will not be 
able to remain in the question period due to a Commerce 
Committee markup. I have a couple of questions I would like to 
include in the record and would appreciate a response from 
Administrator Anderson. Tuberculosis is one of the greatest 
infectious killers of adults worldwide, killing 2 million 
people per year, one person every 15 seconds, more people in 
1999 than any year in world history. Globally, TB is the 
biggest killer of young women. WHO estimates that one third of 
the world's population is infected with the bacteria that 
causes TB including an estimated 10 to 15 million individuals 
in the United States. Eight million people worldwide develop 
active TB every year. It is spreading as a result of inadequate 
treatment and it is a disease that increasingly knows no 
national borders.
    We know the Administration is committed to increased action 
against HIV/AIDS in 2001. The fact is that TB accounts for one 
third of AIDS deaths worldwide and up to 40 percent of AIDS 
deaths in Asia and Africa. HIV infection multiplies by 30 fold 
the speed at which a TB-infected person can develop disease and 
become infectious. In many sub-Saharan countries, the number of 
persons with TB has quadrupled since 1990.
    We have a remarkably cost-effective strategy for TB control 
that uses inexpensive drugs, but the strategy is reaching only 
1 in 5 people ill with TB. A recent study, a WHO study in India 
found that in areas where effective TB treatment was 
implemented, the TB death rate fell by seven fold. We have a 
small window of opportunity during which stopping TB can be 
very cost effective. The cost of DOTs, directly observed 
treatment, can be as little as $20, $20 to save a life. But if 
we go too slowly, so much drug resistant TB will emerge that 
will cost billions to control with much less chance of success.
    Gro Bruntland, Director General of the WHO said that TB is 
not a medical problem, but a political problem that we need the 
will, the political will around the world and the developing 
end, the developed countries, the rich countries, too, to make 
a difference.
    Last year the House passed appropriations bill, included 
$35 million from 0 to $12 to $35 million over the last 3 years 
to control TB. I want to know how much, Mr. Chairman, will 
USAID actually spend for TB control in 2000? How will the great 
majority of this money be used to implement TB control, to TB 
control problems?
    And briefly in another issue, Mr. Chairman, last year, 
House and Senate reports accompanying the Foreign Ops bill 
called for not less than $250,000 in aid to India to be used to 
promote health care in the Sringgari within the State of 
Carnotica. This area faces many health challenges and has a 
mortality rate which is significantly higher than the national 
average. It is my understanding that Sharada don Battari 
Charitable Hospital is the major source of medical care in this 
region. I would like to encourage you, Mr. Anderson, to involve 
them in this project and to be updated on the project's 
progress.
    Thank you, Mr. Chairman, for your indulgence.
    Mr. Gilman. Thank you. Mr. Payne.
    Mr. Payne. Thank you, Mr. Chairman. I just want to be very 
brief to just welcome Ambassador Anderson here this morning. We 
all know of the outstanding work done by previous Administrator 
and we know that you have the compassion and the interest and 
the vision to not only continue that work, but hopefully we can 
even expand it. I look for the day that we can get increased 
funding for USAID. I think it is totally underfunded and 
questions like my colleague, Mr. Brown, brings up about how 
much is AID spending for tuberculosis control, I am sure of the 
answer and I do not even know the numbers, but I am sure it is 
inadequate. It is not enough, but that is because it is beyond 
your control.
    I think that we have to deal with the appropriators. We 
have to take another look at the way we deal with the world. We 
have to take another look at how much we budget for 
international development. I think we are way off the target. 
In the world, we are probably amongst the lowest. I think it is 
about less than 1 percent, probably less than one half of 1 
percent that we actually expend for overseas development and 
when we compare $300 billion defense budget that we are looking 
at now, compared to the pittance, the little pennies that we 
drop, you cannot even say--they are not even pennies from 
heaven. They are almost pennies from hell because it should be 
dollars coming compared to the pennies.
    So I know you have a tough job. We will continually push to 
try to see that we get the appropriations moving forward, 
development fund for Africa is certainly not funded where we 
like it. It is not totally in your purview, but indirectly it 
affects what you try to do.
    So we just welcome you hear and look forward to hearing 
your testimony, but more importantly working with you in the 
future.
    Thank you.
    Mr. Gilman. Thank you, Mr. Payne. Mr. Sherman.
    Mr. Sherman. Thank you, Mr. Chairman. Ambassador, I have 
been generally supportive of the Administration foreign aid 
matters. I think the work you do is very important and so I 
ought to explain why questions today will take on a different 
character. There are news reports that the Administration plans 
to allow nonenergy exports by Iran to the United States. This 
action will be taken by the Administration without any 
consultation from Congress, and so there is a little guilt by 
association in that you are part of the same Administration 
that would undertake this action which not only tells Iran they 
need make no concessions to the United States in order to do 
business with us, but also completely destroys our ability to 
urge our trading partners to demand that Iran stop its missile 
program, stop providing arms to Hezbollah, stop developing 
weapons of mass destruction and free the 13 Jews in Sheraz that 
have been held nearly a year and that face the death penalty. 
For the Administration to leak to the press that this is what 
they are planning to do completely obliterates in my mind any 
benefit of the doubt that I would give to any Administration 
witness at least until those news reports are corrected.
    So Ambassador, it is not you, but that will be reflected in 
my questions.
    Mr. Gilman. Thank you, Mr. Sherman. Mr. Lantos.
    Mr. Lantos. Thank you, Mr. Chairman. I want to welcome 
Ambassador Anderson who is bringing to this incredibly complex 
and difficult task, extraordinary talents and abilities and a 
proven record. We are delighted to have you in this role.
    I want to echo the comments of my friend, Congressman 
Payne. When Harry Truman made his inaugural address along with 
vast numbers of Americans I was thrilled to hear his fourth 
point in his inaugural which subsequently came to be known as 
the Point Four Program, providing economic and technical 
assistance to less developed countries.
    We have slipped enormously in terms of international 
comparisons in our aid program. If we were at the level of 
Norway or Denmark, we would have billions, billions of 
additional funds to deal with the most unfortunate millions and 
hundreds of millions of people living on this planet.
    I find it obscene that as so many rejoice in new found 
wealth, there is no awareness of the need to be our brothers' 
and sisters' keepers. There is a carryover from a philosophy of 
greed that characterized the previous decade and the decade 
prior to that.
    I want to say to you Mr. Ambassador that you can count on 
strong support for Administration policies along these lines 
and support for an increase in the budget. It is often viewed 
by some that economic aid and technical assistance and human 
rights concerns are merely idealistic notions when in point of 
fact both recent and long time history demonstrates that unless 
we attend to the economic needs of people and unless we attend 
to the human rights concerns, we will have explosions such as 
the ones we had in Kosovo and East Timor and scores of other 
places.
    So these are the most practical programs, the most 
pragmatic programs our government engages in and I would like 
to see us on a bipartisan basis work toward restoring our aid 
budget to 1 percent of GDP. It would still leave plenty of 
resources for everything else we are doing.
    We welcome you and we look forward to working with you.
    Mr. Gilman. Thank you, Mr. Lantos. Any other Members 
seeking recognizing? Mr. Rohrabacher.
    Mr. Rohrabacher. With all due respect to my friend, Mr. 
Lantos----
    Mr. Lantos. I just wanted to get a rise out of you.
    Mr. Rohrabacher. Just a note about the era of greed, it 
just seems that everything has to always be blamed on the last 
Administration, Mr. Lantos, and I think that, and I have done 
statistical runs on contributions during the Reagan and Bush 
years which dramatically increased during their years and I 
guess during the Clinton years the amount of--and I agree with 
you, the amount of contributions made with people with 
resources that could give those contributions is down and that 
is not something that we should be proud of. The fact is, we 
are in an era of prosperity and people should be donating more 
of their money to charitable causes. But this is not a 
carryover from the era of greed. During the Bush and Reagan 
years, the amount of charitable contributions dramatically 
increased in our country.
    Mr. Berman. Would the gentleman yield?
    Mr. Rohrabacher. I certainly will.
    Mr. Berman. I think the gentleman makes a legitimate point 
about not always blaming the previous Administration on this 
issue. In fact, under the Reagan Administration foreign 
assistance was far higher than it is now. I think a lot of the 
blame should go this Congress.
    Mr. Lantos. Absolutely.
    Mr. Rohrabacher. Thank you very much, Mr. Berman.
    Mr. Lantos. Will the gentleman yield for a moment.
    Mr. Rohrabacher. Certainly, I am taking all kinds of 
punishment.
    Mr. Lantos. I want to thank my good friend from California 
for yielding. Let me just share a little anecdote with him. 
When I was in Albania some time back and met with our U.S. aid 
contingent and they presented their program which is very 
impressive, in the afternoon I met with the people who run the 
Shorush Foundation in Albania and I discussed to my shock, 
embarrassment and anguish that the private contributions of 
this one American to Albanian technical assistance and aid 
exceed those of our government which I think is a rather 
intriguing comparison.
    I thank my friend for yielding.
    Mr. Rohrabacher. Actually I think we need to appeal more to 
those individuals in our society. The great thing about America 
is we have people from every corner of the world who live here. 
America is not made of one ethnic group, one religion, one race 
and we have people literally who tie us to these very parts of 
the world and in various charitable operations we have people 
who come from these parts of these different countries. Jews 
give a lot of money to Israel. Greeks give a lot of money to 
Greece. Irishmen give a lot of money to Ireland when there is a 
need and I think that these are things we can be very proud of, 
the fact that this ties us and ties our hearts to people in 
need in different places.
    Mr. Lantos. For the record, if my friend allows, Joy Soros, 
she is not Albanian.
    Mr. Rohrabacher. Okay, well with that said I think that we 
must also keep in mind when we are talking about government 
assistance that we should by making sure that we remain a 
country where charitable giving is encouraged, we cannot just 
give everyone the impression that government is going to do it 
all and that, of course, is a very important element in the 
psychology of helping other nations.
    Thank you very much.
    Mr. Gilman. Any other Members seeking recognition? If not, 
we want to again welcome Brady Anderson, our Administrator of 
the U.S. Agency for International Development. Mr. Anderson was 
sworn in as Administrator in August 1999. He directs a $7 
billion program out there. He was previously in the Clinton 
Administration as Ambassador to Tanzania and before that he 
spent 5 years living and working in the villages of East 
Africa. He served 3 years as a Naval officer, including 6 
months in a destroyer off Vietnam. After his military service, 
he was an Assistant Attorney General in Arkansas and he is now 
directing a very important agency.
    Welcome, Mr. Anderson. You may submit your full statement 
and we will put it in the record or you may read it, however 
you may deem appropriate.
    Please proceed.

STATEMENT OF J. BRADY ANDERSON, ADMINISTRATOR, U.S. AGENCY FOR 
                   INTERNATIONAL DEVELOPMENT

    Mr. Anderson. Thank you, Mr. Chairman and Members of the 
Committee. I am very pleased to be here today in my capacity as 
Administrator of U.S. Agency for International Development----
    Mr. Gilman. If you would withhold a moment? May we have 
order, please, while Mr. Anderson proceeds?
    Mr. Anderson. Thank you, Mr. Chairman.
    Mr. Gilman. Please, proceed.
    Mr. Anderson. I am pleased to be here today in my capacity 
as Administrator of the United States Agency for International 
Development to present the President's fiscal year 2001 budget 
for foreign assistance programs and to lay out the priorities 
of the Agency.
    I know that your colleagues on the Budget Committee are 
discussing the overall fiscal year 2001 international affairs 
budget. We need your support for the President's request of 
$22.8 billion in order to provide essential fundings for these 
important programs which include those managed by USAID.
    I would like to make brief comments and request that my 
formal remarks be included in the record.
    Mr. Gilman. Without objection.
    Mr. Anderson. During my tenure at USAID, my priorities are 
to continue strengthening the Agency's collaboration with the 
Department of State and to improve our relations with Congress. 
I also hope to make significant headway in resolving the 
management problems that have bedeviled this Agency for some 
time. In short, I want to insure that USAID resources, approved 
by Congress, have their maximum intended benefit whether in 
building democracies in market economies, promoting children's 
health, preventing and mitigating conflict or responding to 
foreign disasters.
    As you said, Mr. Chairman, I come to USAID with 8 years of 
field experience in Africa, 5 years as a linguist with the 
Wycliffe Bible Translators and three as the U.S. Ambassador to 
Tanzania. I have worked and lived in the villages of Kenya, 
Tanzania and Ethiopia. I know how difficult life in Africa can 
be. I also know that the people of Africa want, more than 
anything, the chance to succeed. I am proud to be before you 
today as part of an organization that works to give them and 
millions of other people around the world that chance.
    Since my confirmation last August I have visited the 
Balkans, the Middle East, Turkey, and the Central American 
countries of Guatemala, El Salvador and Honduras. Today, I 
would like to share with you some of my observations from these 
visits.
    We are in a tough business where there are no easy answers 
or silver bullets. The challenges faced by the developing world 
are real. They are extremely difficult and they are all 
inclusive. There has been progress in the past few years. 
Still, we are constantly reminded of how far other countries 
have to go before they can become free and prosperous 
societies.
    We as a nation are proud of the freedoms guaranteed to our 
own citizens. We celebrate the opportunity for economic 
improvement that our system creates for Americans and we are 
rightly concerned that these freedoms and opportunities be 
passed on to future generations. Sometimes we lose sight of the 
fact that even for the United States it took almost 200 years 
before equality and the unalienable rights of the individual 
came to rest upon solid foundations.
    It took time for us to develop an economic system that 
provided opportunity for everyone in our society, rather than 
one that operated for the benefit of a few.
    What this experience has taught us is that democracies and 
market economies do not magically appear. They require the 
creation of solid, democratic institutions, the rule of law, 
guarantees for basic individual rights, and a free market 
system that offers opportunity for all.
    Many of the problems facing the people of the developing 
world such as disease, illiteracy, grinding poverty, 
environmental degradation, repression and corruption stem from 
weak and sometimes nonexistent institutions.
    Given this reality what is the role of USAID? What can we 
do?
    Well, the most important contribution we can make is to 
transfer American knowledge, ideas and information. This is 
what USAID does and this is what we do best. At USAID we talk a 
lot about institution building and I know it can seem rather 
esoteric, but let me explain why we think institutions are so 
important.
    Institutions are the bricks and mortar of any society, but 
they are especially important in democracies because they 
reflect the needs of the people. Take a look at our own 
country. Our justice system depends upon the rule of law, the 
idea that all men and women are equal before the law. Our 
social safety net insures that the most vulnerable in America, 
the elderly, the poor, the sick, get the health care they need 
and deserve. Even the fact that our trash is picked up on time 
reflects a local government that is efficient and responsive to 
its constituents.
    These are just some of the things we are trying to help 
other countries create. The goal of our Agency is to help 
nations develop into functioning, market-based democracies, not 
because democracy is American, but because democracy is a 
system of government that serves the people it governs. 
Democracy cannot be implemented without strong institutions. 
The ability of people in developing countries to deal 
effectively with the basic problems of child mortality, 
poverty, illiteracy and corruption is almost entirely dependent 
upon the quality of their political and economic institutions.
    We are working to establish the rule of law, to create 
independent judiciaries, independent media, to implement needed 
economic reforms like international accounting and audit 
standards and banking reform. We are working to privatize 
state-own enterprises and to help pass laws protecting private 
and commercial rights all over the world.
    Like many of you, I agree that our microenterprise, child 
survival, population, agriculture, environment, girls' 
education and infectious disease programs are important parts 
of USAID's work. However, it is important not to lose sight of 
the fact that if we are to succeed in the long term, we must 
leave behind people and institutions with the capacity to deal 
with these problems on their own.
    The United States does not and cannot exist as an island of 
prosperity in a sea of poverty and instability. What is more, 
foreign aid, as we all know, benefits Americans just as much, 
if not more than it benefits other countries.
    We do not want our children and our grandchildren to live 
in a world of failed states, famine, epidemics, terrorism and 
instability. All of which threaten our own security and 
prosperity.
    In my travels as Administrator, I have met many people and 
I have heard many stories and I can tell you that people around 
the world look to us not because they need money, but because 
they need inspiration. They respect us and they want to work 
with us to find solutions to their problems. They do so 
because, as Americans, we believe strongly in the dignity and 
the worth of the individual. I think USAID's programs today 
reflect this fundamental value, the belief that as President 
Kennedy once said, ``The rights of man spring not from the 
generosity of the State, but from the hand of God.''
    I take seriously my role as the President's Special 
Coordinator for International Disaster Assistance. Earlier this 
month in response to flooding in Mozambique and other Southern 
Africa nations, I designated a search and rescue team and 
disaster assistance response team to Mozambique to help the 
victims of this crisis. I have coordinated with the Department 
of Defense to transport relief supplies and with the U.S. 
Department of Transportation to provide a U.S. Coast Guard 
search and rescue coordination team. I have asked our Africa 
and humanitarian response bureaus to work alongside the World 
Bank's assessment team that is in Mozambique today to develop a 
strategy to help the people of Mozambique regain their footing.
    I firmly believe that USAID can and does make a difference 
in the world because of who and what we are. We are doers who 
look at problems not as obstacles, but as challenges to 
overcome, but we need the flexibility to focus our resources on 
things that will make a difference over the long term. It is 
for this reason that I have focused today on the critical 
importance of institution and capacity building in both the 
political and economic spheres.
    There is one more point I would like to make, Mr. Chairman. 
USAID is the premiere donor agency in the world because our 
presence in the field is one of the strongest in the world. 
This presence today is jeopardized by continued constraints on 
our operating expense budget. I know the people who work at 
USAID are among the finest people, not just in government, but 
in our society. Their efforts and commitment to our work 
overseas deserve not only our respect, but also our gratitude 
and support. I hope that support will be reflected in this 
year's allocation for our operating expenses.
    I appreciate this opportunity to set forth my views and I 
will look forward to answering your questions.
    Thank you, Mr. Chairman.
    Mr. Gilman. Thank you, Administrator Anderson. USAID 
missions in the field often do not receive funds until the 
third or even fourth quarter of the fiscal year. Can you tell 
us what causes those delays and what can we do to avoid that?
    Mr. Anderson. That is unfortunately a part of the planning 
process and the appropriations process. One of the most 
important priorities I have at the Agency is to attack some of 
the management issues that we have had for a long time.
    USAID is an Agency that makes contracts and agreements with 
universities, nongovernmental organizations and others. This 
entire process has come to take entirely too long. We are 
looking at it now. We have been looking at it for several 
months in hopes of moving that time up when, in fact, we can 
get money into our missions overseas.
    I feel strongly that the USAID missions in the countries 
where we have them--73 now, but it will be 70 after this year--
is where the programs really are. The mission directors need 
more flexibility. Withholding the funds from them for so long 
is not the way to do it.
    Mr. Gilman. So you think you will have that corrected this 
year?
    Mr. Anderson. I think we will improve it this year, Mr. 
Chairman.
    Mr. Gilman. I hope you can correct it this year.
    How will you be dealing with the challenges insuring that 
the missions, your aid missions are not funding NGO's that may 
have links to terrorist organizations?
    Mr. Anderson. There is an intergovernmental process that 
has been set up recently to review proposals like this that 
involves all of the relevant agencies of the Federal 
Government, not just ours. State and others have the 
information that we need to be able to make that sort of 
judgment and I am confident that new system will enable us to 
screen out groups that----
    Mr. Gilman. Who or what is in charge of that new system?
    Mr. Anderson. State Department primarily.
    Mr. Gilman. Who?
    Mr. Anderson. The State Department.
    Mr. Gilman. And who in the State Department?
    Mr. Anderson. I have had conversations with Under Secretary 
Pickering about it on several occasions.
    Mr. Gilman. Does Pickering have someone in charge of that?
    Mr. Anderson. I am sure he does, but I could not say who it 
is.
    Mr. Gilman. Could you provide that for us?
    Mr. Anderson. I will do that.
    Mr. Gilman. So we can make it part of the record.
    And NGO workers are coming under increasing risk of 
kidnapping, murder and assault. What is USAID doing to insure 
that its grantees are prepared and security conscious?
    Mr. Anderson. The Ambassador, as chief of mission in each 
country where we work, is tasked by the President, as it were, 
and the Secretary to oversee the security of official Americans 
in the country. We get information from the RSO, the Regional 
Security Officer in the area. He or she provides that 
information to us and to the Department of State so that we can 
make judgments about places that we work. For example, 
Chechnya, as you know, is a very dangerous place and we do not 
do anything inside Chechnya; the Department of State and the 
Ambassador have advised us not to fund any NGO work inside 
Chechnya because of security concerns.
    We have a security office at USAID, and of course the State 
Department does and we have offered training opportunities for 
NGO's. We have encouraged NGO's to talk to us before they 
engage in any activity anywhere. We encourage them to go by the 
Embassy when they are in the country where they are going to do 
the work and talk with the RSO first. We make access to radio 
frequencies available to them in the countries where they work. 
That is one of the most important things for them so they can 
communicate and find out when there is a danger in a certain 
area.
    Mr. Gilman. Thank you, Mr. Anderson.
    Mr. Anderson. Thank you, Mr. Chairman.
    Mr. Gilman. Mr. Gejdenson.
    Mr. Gejdenson. Thank you, Mr. Chairman. Let me thank you, 
one, for the cooperation we have had on the microenterprise 
loans. Obviously, an area we both have great commitment to and 
I think we are making progress. It is one of the areas that I 
think we have been incredibly successful. Working together with 
Chairman Gilman, the First Lady, and your predecessor and now 
you, sir, we are very appreciative of that.
    It is interesting the President raises, the Chairman raises 
the issue of delay in funding because one of the areas that we 
have had some disagreement, although the Chairman and I often 
do agree is the situation in Haiti where the Chairman and 
others have put a hold on funding to assist democracy and child 
assistance and food aid. I was wondering when congressional 
holds like that occur in a country as poor and as troubled as 
Haiti, what has that done to the program in Haiti?
    I am not trying to start a fight between you and the 
Chairman.
    Mr. Anderson. I should begin by saying that I respect the 
Chairman's and any Congressman's concerns about a program or 
proposal that we have, especially in a place that does involve 
a lot of controversy like Haiti. There are tremendous needs in 
Haiti in terms of humanitarian issues and in terms of democracy 
issues. It is those things that our programs are designed to 
address, and therefore I hope that holds can be lifted on 
programs that----
    Mr. Gejdenson. But essentially what happens is it disrupts 
the ability to execute programs and prevent you from getting 
help to some of the neediest people in the world. Is that 
correct?
    Mr. Anderson. The Haitians are certainly among the neediest 
people in the world and our programs are designed to help them.
    Mr. Gejdenson. Thank you. One of the things that----
    Mr. Gilman. Would the gentleman yield?
    Mr. Gejdenson I would be happy to yield to the Chairman.
    Mr. Gilman. Just bear in mind when we put a hold on it, it 
is done for an important purpose and with Haiti it had to do 
with making certain the election process will move forward 
appropriately. Right now, we are concerned that Haiti once 
again is thinking about delaying that important election.
    Thank you.
    Mr. Gejdenson. Well, my sense of what happens in Haiti, Mr. 
Chairman, is that those people involved in the power structure 
have never cared much about the poorest of the poor and that we 
would do much better keeping our focus on helping them with 
their needs and nutrition and health care and not try to use 
that as a leverage for a class of people who rule that country 
who seem not to care at all about the poorest of the poor.
    Let me go to another area now that we have touched that one 
and that is on the issue of disease and disease control because 
I think it is going to be a growing area of focus and I would 
just suggest that you work with World Health Organization. My 
colleague, Mr. Brown, talked about the virulent strains of TB. 
As I indicated earlier, we have got the West Nile disease, the 
AIDS epidemic in Africa which continues to grow will provide 
hosts for a number of opportunistic diseases that are much more 
easily transmitted than AIDS and will have a direct impact on 
us here. I really think that this is an area that we have to 
help, you have to help us develop the information so we can 
bring it to our constituents so they can see in this case while 
what we are doing has a humanitarian element, there is also an 
element of self-preservation. If we can keep AIDS from 
spreading in Africa, it is obviously going to help Africa which 
is already devastated by this disease, natural disasters and 
wars, but there is also a terribly important ingredient for us. 
Can you give us an assessment of where that is?
    Mr. Anderson. HIV/AIDS, polio and TB know no boundaries. 
They do not need visas to enter the United States and while 
there is no polio in the Western Hemisphere, it unfortunately 
continues to resist eradication in Central Africa, especially, 
and also in India. There is a very huge concerted effort on our 
part and as a part of the WHO to really hone in on polio to 
eliminate it. I would agree with you, Congressman, that to 
eliminate and contain diseases like HIV/AIDS, TB and polio that 
cripple and kill so many people, including Americans, it is in 
our own self-interest to make the effort along with others. We 
cannot do it ourselves. We should not do it by ourselves. It is 
not possible. The challenge is too great. We are focusing 
greatly; the President has made this a big priority for us.
    Mr. Gejdenson. Thank you. Let me just close with one last 
suggestion and that is from time to time the issue of 
purchasing American products comes up. I am not going to go 
into a great specific discussion because I only have a limited 
amount of time left, but I want to tell you it is terribly 
important as the agencies make decisions on purchasing products 
that they put a high priority on products made in the United 
States, when American taxpayer funds are used to help other 
countries. For those of us who fight for U.S. foreign 
assistance, we are undermined, whether it is the USDA or your 
organization or State, when highly visible items, in 
particular, but at all times, where it is at all practical, to 
make sure that we buy American products with American taxpayer 
dollars. We want the support of the American people. We use 
their resources to pay for these programs. We have to make sure 
the NGO's and the other agencies we work with understand that 
it is an important element.
    Thank you, sir.
    Mr. Anderson. Thank you.
    Mr. Gilman. Mr. Bereuter.
    Mr. Bereuter. Mr. Ambassador, thank you for your testimony. 
I have a number of questions I am going to go through quickly 
and hope you could address at least some of them now and then 
get back to me on the others.
    The State Department, I think with AID, sent an assessment 
mission to Indonesia that called for $450 million in aid over 3 
years. It appears that the budget request does not meet that. I 
raised questions about why it does not. There are no ESF funds 
for India or for the Philippines in fiscal year 1999 and 2000, 
yet there are $5 million each for fiscal year 2001. That seems 
like a bad idea to me. If you want to spend money in those 
countries why do you not put it in development aid or child 
survival aid? I do not understand why you are starting those 
programs of ESF assistance. Generally, it is not a good way for 
us to leverage our foreign aid.
    In Macedonia, I am interested in some more detail about how 
we will spend the money there and I would like to know from 
your staff what assistance the European Union countries are 
providing to Macedonia, a country that has borne probably the 
biggest cost because of the Kosovo conflict.
    There is bipartisan legislation being considered to place a 
15 percent cap on U.S. multilateral assistance to the Balkans. 
In light of the EU's and other countries' failure to meet their 
commitments to civilian government and all of its related 
programs in Bosnia and in Kosovo, I would like your reactions 
as to whether or not you would support such a cap as leverage 
on our allies to do what they are required to do.
    I would hope that you can keep in mind with respect to aid 
to Bosnia about the incredible corruption that exists on all 
sides in the country. That corruption is absolutely stopping 
any kind of foreign direct investment. The extent you finally 
can leverage some movement from the level of corruption in 
Bosnia that would be important because right now we are not 
making any progress. We are just throwing money away.
    Finally, two more points. The Wall Street Journal yesterday 
said very major crop failures in Mongolia with severe food 
shortages beginning and expected to get worse. Are you prepared 
to provide P.L. 480 or other assistance to Mongolia? For this 
fiscal year and certainly into the next fiscal year, you have 
no aid allocated for P.L. 480 to Mongolia, a country which is 
struggling but doing a great job with its limited resources and 
moving toward democracy.
    Finally, I would like a little detail later, on how you are 
going to spend the proposed assistance to Cyprus.
    Thank you. Do you want to tackle any of those issues?
    Mr. Anderson. I would be happy to, yes, thank you, 
Congressman.
    In Indonesia, the assessment team, of course, had USAID 
members on the team, along with State, I believe our request is 
going to be in the neighborhood, it seems to me, of $130 or so 
million. We think at this point that is a good program, that it 
does attack both economic and political issues as well as 
humanitarian issues. It seems that Indonesia's President Wahid 
is committed to economic and political reform and we are all 
pleased that he is there. We want to support him in that very 
important strategic country.
    Mr. Bereuter. I agree with you, Mr. Ambassador. I am just 
wondering why you are not spending another $10 or $20 million.
    Mr. Anderson. Some of that money and this goes into the 
second question about ESF, the State Department allocates ESF 
in consultation with us, but State makes the final 
determinations on ESF and, as it were, we do on development 
assistance.
    Mr. Bereuter. I know. I hope they will hear the concerns 
today.
    Mr. Anderson. Thank you.
    Mr. Bereuter. I want that money to come to you for child 
development, child survival, and other development.
    Mr. Anderson. Thank you. The 15 percent cap, I think, from 
a policy point of view, makes a lot of sense. From a 
development point of view we are proud that one of the things 
that I think we Americans, both militarily and certainly 
through USAID is that we are very often the first people 
present when there has been a crisis because I think of our 
values and because of the efficiency in our systems, although 
at times we fret about our inefficiencies in our bureaucracy, 
but we get places very quickly. We, as Americans, when we see a 
problem we say here is a problem, here is what we think we 
should do to get it fixed and this is how we get there. I just 
think we are very capable of that sort of thing and that puts 
us out front at times in a leadership position which I think is 
usually a good thing.
    In the case with the EU, they have been, in our judgment, 
very slow to respond. They seem to make financial commitments, 
but to actually get the money there on the ground it takes them 
a longer time. Maybe it is the peculiar animal that the EU is. 
But we are going to obey whatever caps there are in legislation 
and appropriations.
    Mr. Bereuter. I know my colleagues, I am infringing on your 
time, but if you, Mr. Anderson, could at least get to Mongolia.
    Mr. Anderson. I am aware that Mongolia had a terrible 
drought and they have had a terrible winter. I know that a lot 
of their animals have died. We have sent someone from our 
Bureau of Humanitarian Response who has already gone to 
Mongolia and is preparing a report to see what we will do. But 
certainly, if P.L. 480 resources are needed in Mongolia, I see 
no reason why we would not use it there.
    Mr. Bereuter. Thank you. I will be satisfied with a written 
response to the rest to expedite things.
    Thank you, Mr. Chairman.
    Mr. Gilman. Thank you, Mr. Bereuter. Mr. Sherman.
     Mr. Sherman. Thank you, Mr. Chairman. I would first like 
to comment on the fact that we do need more foreign aid, but 
often those of us arguing for more foreign aid talk about how 
America is not doing as much as other countries. I think the 
American taxpayer has been the most generous in the world by 
far because you have got to look at what we contribute to world 
peace. We are contributing a massive amount of our tax dollars 
really not to defend the borders of the United States, but to 
work for peace and stability around the world, a peace and 
stability that is in our interest, but it is just as much in 
the interest of Japan and Germany, countries that live in more 
dangerous neighborhoods than we do. So I look forward to 
working for more foreign aid, but starting with the assumption 
that the American taxpayer is, should be and wants to be the 
most generous in the world.
    I would like to return to Mr. Gejdenson's comments about 
the Buy America provisions. I am particularly concerned about 
buying foreign vehicles. America makes every kind of vehicle. 
We should not be providing aid to any country that prohibits 
the importation of American vehicles or imposes restrictions on 
that importation that are more severe than they impose on the 
importation of vehicles manufactured in Europe or Asia. What 
would be the disadvantage of a requirement that 99 percent or 
more of all of the vehicles used by USAID be manufactured in 
North America?
    Mr. Anderson. As I said in my remarks I lived in East 
Africa for 8 years, both as Ambassador and working as a private 
citizen. I spent a lot of time in vehicles and a lot of time on 
the roads in Africa. One of the problems that we faced was 
getting vehicles with the steering wheel on the right side. The 
countries I was in, Kenya and Tanzania, are British, where the 
steering wheel is on the opposite side than it is here. That 
presents a problem in getting vehicles that are made in the 
U.S. with that.
    When I was in Tanzania, actually, I took this on as a 
cause. It certainly was the State Department's policy to have 
Ambassadors transported around in U.S. vehicles. I had to get a 
new one. The old one was dead and I wanted to get a Jeep Grand 
Cherokee. It was a four wheel drive, and if you have been on 
the roads even in Dar es Salaam, you see why I needed that. So 
it took several months to finally get a Vice President from 
Chrysler to send me a fax telling me he would love for an 
ambassador to be in a right hand drive, four wheel drive Grand 
Cherokee, but they do not make them, although he wants to and 
he would hope that we would encourage them to make right hand 
drive vehicles. I wound up buying and importing from Australia 
a right hand drive Ford LTD made in Australia. That was a Ford 
and I am proud of that name. I have had other Fords, but it was 
an Australian vehicle which a lot of people found kind of 
interesting that an American was driving around in it, but it 
had to be right hand drive. I found that was always a real hard 
thing for us.
    Mr. Sherman. Ambassador, what would be the disadvantage of 
a provision of law requiring that 99 percent of all vehicles 
used by AID in left hand drive countries be manufactured in 
North America?
    Mr. Anderson. The second problem that I faced during the 8 
years I was there was getting access to parts and service for 
American vehicles. I asked some missionary friends from the 
U.S. who loved Ford F250 pickup trucks. They drove them when 
they were in the States and they wanted to take them to, in 
this case, Tanzania and Kenya. They put them in a container, 
but they had to fill their container with all the parts, 
filters, and everything. Of course, they themselves are 
mechanics, as a lot of missionaries are in Africa in order to 
service the doggone things because there is no way to service a 
Ford vehicle in East Africa. It is a shame. I hate that we in a 
way have given over to Land Rover and to the Japanese car 
companies, the four wheel drive market. I just think it is a 
terrible shame, but that is a very real, very tough problem. If 
that were a law it would cost--you would have to raise our 
budget tremendously just to maintain the vehicles because there 
would have to be a huge amount of spare parts--it is just a 
reality that I saw. I have to say that.
    Mr. Sherman. Can you look at this matter and report to the 
Committee that each and every time there has been a waiver, it 
is in a country where less than 1 percent of the vehicles on 
the road are U.S. manufactured, where parts are therefore not 
available for U.S. manufactured vehicles? It strikes me as odd 
that you could repair an Australian made Ford, but not an 
American made Ford.
    Mr. Anderson. You could not.
    Mr. Sherman. You could not repair it?
    Mr. Anderson. The back windows of my car would not lower 
after the first few months. We could not get them repaired. We 
had ordered a part. It never came.
    I will do that.
    Mr. Sherman. Thank you. Moving on to----
    Mr. Gilman. The gentleman's time has expired. Let me note 
to all of our colleagues, immediately following the testimony 
by Mr. Anderson and our questions, our Committee will markup 
H.R. 3822, the Oil Price Reduction Act for the Year 2000. 
Please stand by following Mr. Anderson's testimony.
    Mr. Smith.
    Mr. Smith. Thank you very much, Mr. Chairman. Mr. Anderson, 
welcome to the Committee. During the last few months there have 
been new allegations of abuse in the Peruvian government's 
family planning program. The allegations include cases of women 
being told that they must accept contraceptive methods; other 
cases in which contraceptive drugs or devices were administered 
without the woman's knowledge or consent and some others in 
which rewards or incentives were given to the women and/or 
health care providers in connection with acceptance of 
sterilization or other birth control methods.
    As you may know, in March 1998, the Peruvian government 
promised to eliminate all of these abuses in its program. Prior 
to that time abuses had been well documented, many of them in 
connection with sterilization fairs that were held in various 
places throughout Peru and you might also recall that we 
convened a hearing on that and heard from two of the women who 
had been abused in this way who broke down in tears over that 
abuse and one doctor who acted as a whistleblower at great risk 
to himself brought forth the evidence.
    According to the U.S. State Department country reports on 
human rights practices for 1999 which as you know was published 
in February 24th, Peru's highly respected official ombudsman 
has also received complaints of post-March 1998 abuses. The 
report notes that the ombudsman is continuing to investigate 
these abuses, but it does not say whether USAID has drawn its 
own conclusions about whether these abuses have been continuing 
and whether any of them took place in projects, programs or 
activities supported in whole or in part by U.S. funds. If they 
did, these programs would violate U.S. law which requires 
voluntariness and informed consent in U.S. funded family 
planning projects.
    Mr. Anderson, my question is are these serious 
allegations--these are serious allegations and I hope you do 
have some answers. I raise these questions with Secretary Cohen 
last week and hopefully that was passed on to you or your staff 
as to our concern.
    Can you tell us when it first came to AID's attention that 
women may have been denied informed consent in the Peruvian 
government's program even after March 1998?
    Second, aside from supporting investigations by the 
ombudsman, what specific steps has AID taken to determine 
whether U.S. funds were contributing directly or indirectly to 
these abuses.
    And third, if the abuses are happening in the Peruvian 
government's program, but not in projects supported by U.S. 
funds, does not this still raise questions about whether we 
should be in a family planning partnership with a government 
that abuses its own women in this way?
    Mr. Anderson. Thank you, Congressman. I do not know the 
answer to the question. I will find out when someone in USAID, 
whether in Peru or here, first learned about the allegation.
    I was told when I talked about this yesterday, when I first 
heard about this, that our mission in Peru was contacted and 
that they had not been told of these allegations. But I want to 
make sure to answer your question when did anyone in USAID 
first learn of this allegation, I will have to ask and find 
that out.
    Mr. Pomeroy. Will the gentleman yield, briefly before 
continuing?
    Mr. Smith. In terms of being told, again, the ombudsman has 
been receiving these. I have raised this repeatedly. As a 
matter of fact, our hope was that the Peruvian government would 
come clean and absolutely renounce in every aspect of its 
administration of its program the coercion and the lack of 
informed consent.
    Hopefully, and this is very important, AID has been--I mean 
the red flag has been there now for a couple of years. I hope 
they did not fall asleep at the switch. But I yield.
    Mr. Anderson. I certainly hope that they have not. I cannot 
tell you and I will not say what I know about what the USAID 
mission there knew. Everyone, of course, is aware of the 
problems going back to the 1998 hearing and the things that 
were done to try to rectify the situation. I think it is 
outrageous if, in fact, they have lapsed back into this, as it 
were, or if they have made a determination to go back into 
this, depriving women of freedom in this way. I think we should 
do everything we can and we will, to find out if these 
allegations are true, what is the nature and the extent of the 
allegations, who knew what, and when.
    My understanding is the GAO as a part of a wider 
examination requested by Senator Helms, is going to visit Peru 
in May or June of this year and they are looking into the 
family planning program. I look forward to results of the GAO 
study. When we have exactly the nature of the allegations that 
people have made, then I can assure that we ourselves will look 
into it to make sure. It seems to me it may be determined by 
the extent of the violation. I mean is this government policy? 
Is it some local person that has gone off? I really do not 
know, but I think the family planning program is important. It 
is important to the men and women of Peru. They are the ones 
who asked for it and I would hesitate to agree that we should 
stop the program. It would depend, I think, probably on the 
extent of the violation.
    Mr. Smith. Please let me say for the record, even pre-1998 
as we worked up to our hearing, as we were gathering evidence, 
it was never part of the government program. They always were 
in denial, even though there was serious evidence to suggest 
otherwise. I mean that is part of the subterfuge we deal with 
all of the time on every human rights violation. It is never 
something the government in any area of abuse, countenances, 
encourages or supports and yet they countenance, encourage and 
support the very thing they deny and that is why I think we 
need to get to the bottom of this and do so aggressively and I 
know my time is up, Mr. Chairman, but it really does concern 
me. We have been raising these questions now for a number of 
years. Fujimori himself has made population control a 
centerpiece of his war on poverty. Unfortunately, it looks like 
it is a war on the women of Peru as well as on their children. 
You can always eliminate poverty, if you eliminate kids.
    Mr. Pomeroy. Time.
    Mr. Smith. Excuse me?
    Mr. Pomeroy. Time.
    Mr. Smith. The Chairman calls the time. Will the gentleman 
yield?
    Mr. Pomeroy. Yes.
    Mr. Smith. Everybody who serves on my Subcommittee knows 
that if anybody on the Subcommittee ever exceeds their time by 
a minute, two or three or even more, I always extend them the 
courtesy. Mr. Delahunt knows very well as does everybody else. 
So I would hope you would show me the same courtesy.
    Mr. Gilman. Mr. Smith, please, proceed.
    Mr. Smith. I will be happy to yield back the balance, but I 
do hope----
    Mr. Gilman. The gentleman's time is up. Mr. Pomeroy. Mr. 
Pomeroy chaired regularly. If you have a complaint, please 
direct it to the chair.
    Mr. Pomeroy. I only meant as a helpful little note to kind 
of move this along and I apologize to the gentleman if he took 
umbrage at my comment. Really, I did not mean anything by it.
    I do want to begin by commending the Administrator for the 
support he has brought in on alleged affairs. Sometimes I think 
the problem with AID and Congress we just do not understand one 
another very well, so I see Joe Crapa sitting behind you as an 
Assistant Administrator and I think that having someone with 
his many, many miles of Hill experience is going to be real 
helpful to the Agency.
    Second, the Chairman authorized and I was deeply grateful 
to him for this, that I attend a reconnaissance tour of Kosovo 
with the Assistant Administrator in charge of the Bureau of 
Humanitarian Response, Hugh Parmer. Attending that with 
Assistant Administrator Parmer and his support person, Regina 
Davis, let me very deeply impressed about their leadership 
talent and I just want you to know that. I thought they did a 
wonderful job and again, Mr. Chairman, I am very grateful you 
allowed me to go on that.
    I would like to have you comment on a portion of your 
testimony which appears on page 9 and it relates to the 
education of girls. Ideally, this might be a matter for an 
entire hearing at some point, but you state ``USAID has paid an 
important role improving education around the world, especially 
for girls. I am personally convinced that teaching girls and 
young women how to read and write may be our most important 
contribution toward moving the development of countries 
forward.''
    Would you elaborate on that, please?
    Mr. Anderson. I will. Thank you, Mr. Pomeroy, and I thank 
you for the reference to Joe Crapa. He is doing a fine job. I 
think sometimes the problems that we do have are in the lack of 
understanding between us and the Congress. I might point out my 
Chief of Staff and all the other Assistant Administrators are 
here today as well.
    I think a lot of people in this business in the world are 
learning that the role of women in developing countries is a 
big part of all the problems that developing countries face. As 
young girls are educated, the evidence is beginning to be 
overwhelming to show that their health and that of their 
families when they marry and have children are better the 
better educated they are. An educated mother tends more to see 
that her little boys and girls are educated. The economic 
prosperity even of the family seems to be tied directly to the 
degree of the education of the mother and the wife. For those 
reasons more and more people including Mr. Wolfensohn and 
others at the World Bank, we at USAID and others in the world 
are seeing that that is almost the single most important thing 
that we can do to help people lift themselves out of poverty.
    Mr. Pomeroy. Is additional funding--what can we do to kind 
of elevate this as a key high profile component of our 
international assistance strategy?
    Mr. Anderson. Money is a part of it. Sometimes the problem 
is the policy of the government and that involves to some 
extent even culture or cultural norms. People in traditional 
societies might in some cases think that there is less reason 
to educate the girl than there is to educate the boy. Maybe 
that was true even in our own country. I remember that my 
mother told me that it was the case in her family. Her twin 
brother went to medical school. Even though she wanted to go to 
law school, she was not allowed because they wanted to send her 
brother.
    But that aside, oftentimes it is policy, it is education 
policy at the national level that holds back the girls. We have 
various ways to encourage policy reform at the national level, 
some of which involves resources in which we can get the 
national education authority to provide scholarships for girls. 
Oftentimes in Africa, girls who are members of nomadic tribes 
are notoriously difficult to educate anyway, but the girls 
especially are. If there can be scholarships for girls in a 
nomadic tribe, then that is the way to get at this sort of 
problem.
    Mr. Pomeroy. Thank you.
    Mr. Ballenger [presiding]. Having a new person at the desk 
here I just thought I would get my two cents in and say I think 
you are doing a wonderful job in Venezuela from the disaster 
and I would like to say the work you have done in Salvador and 
Nicaragua for microenterprise is something that you ought to 
blow your horn about.
    Next, it is Mr. Cooksey's time.
    Mr. Cooksey. Thank you, Mr. Chairman. Jambo.
    Mr. Anderson. Si jambo.
    Mr. Cooksey. I made my first trip about 2 years before you 
and I was in Maua in north, really east of Meru if you are 
familiar with that area.
    Mr. Anderson. Yes.
    Mr. Cooksey. My last trip was to Mozambique when it was dry 
there, toward the end of the civil war.
    My questions are in two different categories. My first set 
of questions would be in regard to the administration of the $7 
billion budget that you are responsible for. My second area, 
line of questioning, will be in regard to malaria research 
because there are millions of people that are suffering from 
malaria and a lot of the people are dying.
    I am concerned when I learned here today that it takes 3 
years for dollars that are appropriated for these programs to 
get there, whereas NGO's that go over and you were part of an 
NGO and I was part of an NGO when we were both working in East 
Africa, can deliver the goods, deliver the services, deliver 
the technology and the information in a much more efficient, 
effective manner. So I was a little bit disturbed to learn 
that.
    My question is how can you as someone from Helena, Arkansas 
and I live about 200 miles south of you in Monroe, Louisiana, 
with a legal background and a political background, come in and 
solve the problems that are really accounting, administrative 
problems in a program that has been fraught with administrative 
disasters and wasted funds which are really American taxpayers' 
dollars. How are you going to overcome that? I understand that 
AID spent $100 million trying to develop a new set of systems 
controls, computers, hardware, software and it failed.
    My second question is how much effort is being put into 
malaria research? I know a lot is being put into AIDS research, 
but what about malaria? Because when I was there, malaria was a 
problem. Today it is a problem and it will be a problem in the 
future.
    I will qualify my first question. How are you as 
Administrator going to overcome what I feel is too often a 
political agenda of the Administration you serve and overcome 
the people on my side of the aisle who are single issue Members 
of Congress that have never really been there to work. They go 
there to talk. I want the people who get the work done and not 
a lot of bureaucrats and not a lot of politicians. There are 
millions of people that are suffering and dying in this part of 
the world. I think we are wasting a lot of time here and 
taxpayers' money. Convince me otherwise.
    Mr. Anderson. Thank you. My wife is from Shreveport----
    Mr. Cooksey. My wife is from Shreveport too.
    Mr. Anderson. We will talk about that later.
    Mr. Cooksey. Burt High School.
    Mr. Anderson. Of course, Burt High School. Let me address 
malaria first. I have had malaria a couple of times as has my 
wife.
    Mr. Cooksey. Me too.
    Mr. Anderson. As you know, it is not fun to have. I think 
the President is right about this effort. I was at the White 
House a few weeks ago when Mr. Wolfensohn was there, the WHO 
was there, UNICEF was there, Bill Gates' father was there, 
other foundations were there and the pharmaceutical companies' 
heads were there.
    The President is trying to develop a vaccine for malaria. 
The pharmaceutical companies are going to be the ones who are 
going to do it, but they naturally want profit and they know 
they have to make a profit. So if malaria, unfortunately, only 
occurs among people who are too poor to pay for the vaccine, 
why in the world would the pharmaceutical companies develop the 
thing? That is a fundamental problem.
    There has been, as you know, research going on for some 
time, some of which we have been involved in funding part of 
and others have as well. But the President's effort is to try 
to get the big companies, Merck was there and Smith Kline 
Beecham and several others, to get involved in this. They say 
very frankly they would like to, but malaria is apparently 
extremely difficult to chase down because it changes all the 
time.
    Mr. Cooksey. I would point out if you would let me 
interrupt you and I am a physician. I am an ophthalmologist. An 
American pharmaceutical company developed the medication that 
is the cure for River Blindness.
    Mr. Anderson. I know.
    Mr. Cooksey. And they have given it away.
    Mr. Anderson. I know Merck----
    Mr. Cooksey. And gained no financial benefit. But anyway, 
they have got a good track record.
    Mr. Anderson. They do.
    Mr. Cooksey. As long as the politicians stay out of their 
way.
    Mr. Anderson. I think that is a way to approach it. There 
is going to be some tax credits and ways to try to get them to 
do it.
    On the management question, that system that failed is 
called the new management system. The Agency tried apparently 
to develop a system and apply it specifically to USAID, and 
that did not work. The day they plugged it all together, it did 
not work. What we have done is purchase a commercial off the 
shelf [COTS] financial accounting system, that meets all the 
Federal standards. It has been put in other Federal agencies. 
We have purchased that system. It is being installed today in 
Washington and will be completed some time in October of this 
year. Then it will be installed first in Egypt and then in El 
Salvador as pilots by next March. Then eventually, as we work 
out the bugs, it will be installed worldwide by the end of 
2002. I am glad you asked the question. Management is a very 
important thing. It is a boring, dull topic to talk about, but 
it is very, very important. I tell people in the Agency all the 
time that I am a manager and all of you are. It hurts our 
credibility----
    Mr. Cooksey. Sure.
    Mr. Anderson. As an agency with the Congress and with the 
American people, and that is why I think we have to improve the 
management of the agency, I am very confident that we are doing 
that. I am very confident.
    Mr. Ballenger. The gentleman's time is----
    Mr. Cooksey. Thank you, Mr. Chairman. I hope that is being 
done because I feel like too much money is being wasted in our 
government and in the recipient government. The dollars are 
not----
    Mr. Ballenger. The gentleman's time is way past. Mr. 
Delahunt.
    Mr. Delahunt. Thank you, Mr. Chairman. Welcome, Mr. 
Anderson.
    I am going to ask you some questions regarding the 
assistance package for Colombia that will shortly be considered 
either next week or the following week. There was a summit that 
was held here as a result of the efforts of Mr. Mica and the 
UNDCP which is their drug control program and there was some I 
thought illuminating information regarding the success of rural 
development and alternative crop substitution programs, both in 
Bolivia, Peru and Ecuador.
    The proposal put forth by the Administration has some $145 
million dedicated to those kind of efforts. There are many in 
Congress that are concerned about the balance of the U.S. aid 
package, some 80 percent going to security assistance, 
primarily helicopters and other military hardware and 20 
percent going to for lack of a better term the rural 
development social investment side of the equation.
    In terms of the $145 million, when asked and I understand 
it would be USAID which would administer most of those dollars, 
when asked why the imbalance we continue to hear that there is 
an inability on the part of both USAID and the government of 
Colombia to absorb any more dollars.
    Have you had an opportunity to review those statistics? Is 
that your conclusion?
    Mr. Anderson. In Colombia itself, that seems to be the best 
judgment of our people. In part of the package, there is some 
money included for Peru, Bolivia and Ecuador.
    Mr. Delahunt. I just want to focus on Colombia, Mr. 
Anderson.
    Mr. Anderson. It is a judgment call as to what can be 
absorbed there. I think we have only got two U.S. direct hires 
in Colombia now and we are going to send another two as quickly 
as we can so we are doubling that. That is a very small staff 
for such responsibility.
    Mr. Delahunt. Let me interrupt if I may. My concern is that 
the successes that these kind of efforts have had elsewhere in 
the Andean region have been outstanding. The 50 percent 
reduction in the cultivation of coca in Bolivia, I think, is 
probably the best example. It is my position that we should be 
making more of an investment in terms of those kind of 
initiatives and if it is the position of the Administration 
that we do not have the infrastructure in place to absorb and 
as you say and I am familiar and by the way your folks on the 
ground in Colombia are outstanding. I want to compliment you on 
that.
    But also to say that we cannot absorb it when we know that 
the United Nations, the UNDCP has the ability and the 
infrastructure available now to conduct these kind of programs 
far in excess of $145 million. I guess my query would be and it 
is currently happening in Colombia, with the government of 
Colombia and the UNDCP under the leadership of Mr. Alarchi who 
is noted in law enforcement circles for having dealt a severe 
blow to the Mafia in Italy when he was a member of that 
government, have absolutely in their representations during the 
course of that summit indicate that they have on the ground, in 
the Andean region, the ability to do more if only they receive 
some funding from donor countries.
    Why would not we go that route when we know that in the end 
that will do more, I dare say, than simply efforts to interject 
and eradicate without having the component of rural development 
slash alternative crop substitution?
    Mr. Ballenger. Let me just say, Mr. Anderson, we will give 
you the chance to answer the question. That was a very long 
question you gave.
    Mr. Anderson. I will be brief.
    Mr. Ballenger. Okay.
    Mr. Anderson. I agree that the rural development component 
is an extremely important part of Plan Colombia and the 
helicopters are important. But without the rural development 
part of it, it is going to create a lot more problems in the 
future. The total is $97 million or so in the first year. 
Oftentimes it is better to start a little bit more slowly to 
see what we can do, and then after the first year, it may be 
that that is a time to gear up. I mean, in a lot of places in 
other parts of the world, for example, Nigeria and Indonesia, 
where we are putting a lot of effort in, very quickly, it makes 
me as a manager, and it does in Colombia, makes me nervous that 
we do it. It is important that we do it the right way and that 
we do not have any wastage. But it is an extremely, extremely 
important part of the Administration's package.
    Mr. Ballenger. Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much. Those of us who have 
been skeptical about American foreign aid are disturbed when we 
see recipients of our aid using their own resources for things 
that just do not make any sense to us, especially when 
recipients of foreign aid use their own resources for weapons 
and how much money are you proposing for family planning 
assistance for India, for example?
    Mr. Anderson. I do not know the family planning part of the 
India budget. I can get that information for you.
    Mr. Rohrabacher. Are we talking over $100 million, I 
believe? What would it be?
    Mr. Anderson. It could not be that much because the whole 
India program is, I believe $130 or $140 million in fiscal year 
2001, and the fiscal year 2001 request totals $164.7 million.
    Mr. Rohrabacher. Does your staff have any suggestions?
    Mr. Anderson. Less than $5 million, between $3 and $5 
million--actually, I've just been advised the fiscal year 2001 
request for family planning is $26 million.
    Mr. Rohrabacher. Okay, I guess the $100 million figure I 
got was last year was all aid to India of some kind, equal 
that. All right.
    So if all aid to India equals $100 million or thereabouts 
and do we have any aid, are you proposing to Pakistan?
    Mr. Anderson. Pakistan has a small program, about $3 
million in 2000 and $2.2 million in 2001, which is designed to 
educate young girls and young women and to provide maternal and 
child health care. That is all.
    Mr. Rohrabacher. No food assistance to Pakistan?
    Mr. Anderson. I do not believe so. No.
    Mr. Rohrabacher. So Pakistan--India receives about $100 
million. Pakistan receives $3 million through this thing.
    North Korea receives how much? I understand it is the 
largest recipient of----
    Mr. Anderson. It receives food aid. We provided $50 or $60 
million in food aid to North Korea in 2000. India is receiving 
over $82 million in fiscal year 2000.
    Mr. Rohrabacher. $50 or $60 million in food aid. Let me 
just point out the obvious. North Korea is maintaining one of 
the largest militaries in Asia and India and Pakistan continue 
to spend their money not just on weapons, but weapons of mass 
destruction and of course, Korea, as we know, many of us 
believe that Korea is actually moving forward trying to develop 
weapons of mass destruction.
    Is not this a travesty for us to be providing countries 
that use their own resources in this way and this can go to 
other countries as well that are spending too much of their own 
money on weapons and such? Is it not a travesty for us? Is this 
not a betrayal of our own people to spend our own limited 
resources that way when they are using their resources for this 
type of nonsense?
    Mr. Anderson. Thank you, Congressman. I certainly wish, and 
I think we all do, that a lot of countries in which we are 
involved in economic and development assistance spent less on 
their militaries. I think that in general the American public 
does support the kind of humanitarian assistance that, as I 
mentioned, in Pakistan is educating especially young girls in a 
system. As you know, Pakistan does not emphasize that 
particular thing. I might add as we talked about with Mr. 
Pomeroy earlier, often the education of young girls and women 
can lead to change.
    Mr. Rohrabacher. Let me note that I have charged for the 
last 3 years that the Administration has a covert policy of 
supporting the Taliban in Afghanistan and all the documents 
that I have read, I might add, back up so far, but yet the 
State Department has, of course, not delivered the documents, 
all of the documents that I have requested, even after 2 years 
and I will repeat that charge today for anyone. So anything 
that you want to do for young girls that this Administration 
claims to have done for young girls has been undone in spades 
by this policy in Afghanistan, but that will some day come to 
light and you may be able to talk on that subject some other 
time. Go right ahead.
    Mr. Anderson. As far as Korea is concerned, we provide only 
food aid and it is directed at elderly people in nursing homes, 
children, people in orphanages, that kind of thing. I hope, on 
both sides of the aisle, that we all agree that feeding 
children and people who need food is something that the United 
States----
    Mr. Rohrabacher. I think we disagree with that. I think 
that the American people are smart enough to know that if we 
spend our money feeding children and they spend their money 
feeding their military, what we are really doing is feeding 
their military and that may not dawn on the Administration, but 
certainly the taxpayers understand that.
    Well, let me ask you. I have a press release here from HUD. 
This may be out of your area, but it says we are building homes 
for the Chinese communists. Do you know anything about that?
    Mr. Anderson. No sir, I do not.
    Mr. Rohrabacher. In November 1999 describes how we have a 
cooperative effort with the communist Chinese to help build 
homes for the Chinese people.
    Mr. Ballenger. The gentleman's time----
    Mr. Rohrabacher. I would just suggest that Chinese are 
building rockets to destroy people by the millions. The North 
Koreans are spending money on weapons, the Indians and the 
Pakistanis, as well as many other countries are. Yes, we can 
help starving children in those countries but by providing 
money to those starving children, we are permitting those 
countries to spend their money on weapons and that is a 
travesty.
    Mr. Ballenger. Mr. Anderson, I think that was a statement 
and not a question, so if I may I will go to Mr. Menendez next.
    Mr. Menendez. Thank you, Mr. Chairman. Mr. Administrator, 
welcome in your maiden visit to the Committee. You are doing 
fine and I appreciate the meeting we had. I have a series of 
questions to start off with and I would ask you if you could 
just answer them yes or no.
    I think you will see why. I will not be unfair, I think, 
but I think you will see what I am trying to establish here.
    Do you believe that trade alone can control illegal 
migration to the United States?
    Mr. Anderson. No.
    Mr. Menendez. Do you believe that trade alone can reduce 
the flow of illicit drugs to the United States?
    Mr. Anderson. No.
    Mr. Menendez. Do you believe that trade alone can help 
consolidate fragile democracies?
    Mr. Anderson. No.
    Mr. Menendez. Do you believe that trade alone can help 
reduce poverty?
    Mr. Anderson. No.
    Mr. Menendez. Do you believe that trade alone can fight the 
spread of infectious diseases?
    Mr. Anderson. No.
    Mr. Menendez. Or for that fact protect the environment 
alone?
    Mr. Anderson. No.
    Mr. Menendez. Thank you.
    Mr. Anderson. You are welcome.
    Mr. Menendez. And it is that--a very cooperative witness. 
It is that set of circumstances that I have just asked you 
which your organization itself, your Agency, has established as 
the national interest of the United States in the Western 
Hemisphere and my concern is when we come to the conclusion 
that trade alone cannot do all of those things it may very well 
be a factor in enhancing the possibility for some of those 
things. It cannot do all of those things. That when this year's 
request for the region is about a third of a request of a 
decade ago, a 1990's request, it is a real problem. It is a 
real problem because unfortunately the region's problems have 
not diminished by a third. We celebrate what we call 
democracies in the hemisphere, save one, but the fact of the 
matter is that in many places in the hemisphere that democracy 
is clearly at risk.
    We spent an enormous amount of money in Central America 
during the late 1980's to promote democracy. Now that we have 
the opportunity to consolidate democracy for this century we 
have a real problem in terms of the type of budget that we are 
offering. So my concern continues to be, as it has been for 
several years and this is not unique to now your being here, 
but I just wanted to wave my sabre early and hope that our 
colleagues on the Committee as well as appropriators and I know 
the congressional Hispanic caucus who is going to be pushing 
this issue will look for an increase and if you did have an 
increase within the region's budget, would you be able to 
effectively produce greater assistance in the region?
    Mr. Anderson. We could, Congressman. The consolidation of 
democracy is a key issue, obviously, in Central America and in 
Latin America as a whole. I have had the privilege, as I stated 
in my original remarks, to visit Central America several months 
ago and was terribly impressed with what is happening in places 
like El Salvador in the consolidation of democracy. The people 
are committed and there is an opportunity now to consolidate 
democracy and really grow economies after so much for so long 
was wasted. They are committed to inclusion, bringing all parts 
of their society, whether they be indigenous Indians or just 
citizens of a lower socio-economic class, into the society. I 
see that commitment there, and I think we should support it. If 
we did have more resources we could be more helpful and 
supportive of this effort.
    Mr. Menendez. I appreciate that statement. I think that the 
Colombia package that we will soon be debating is emblematic of 
the difficulties we have in the hemisphere. We wait for an 
enormous problem to be on our hands and then we rush to pump in 
money to try to solve it, money that while certainly we need to 
do something with Colombia, the question in Colombia's case it 
will be over $1 billion. That is far beyond the $600 some odd 
million that exists for the rest of the hemisphere. Many parts 
which have problems with sustainable development issues, many 
other countries for which I know, for example, we have had some 
questions raised about the AID's alternative development 
programs in Bolivia and a few other places, I would hope that 
we do not wait for those locations to become a crisis and then 
we are facing not a steady, an intelligent expenditure of money 
over time in which we avoid and curtail the problems of illegal 
immigration, biodiversity issues, health issues, we are facing 
in parts of the country here in the United States, illnesses 
that were eradicated at one time and now we see them. All of 
those issues are at stake for us and I look forward to working 
with you and hopefully our colleagues to increase the resources 
for this part of the world for which the United States has a 
direct national interest.
    Thank you.
    Mr. Anderson. Thank you.
    Mr. Ballenger. If I may, Mr. Radonovich has a statement he 
would like to have included in the record. Can someone ask 
unanimous consent to include his statement in the record?
    Mr. Houghton. So moved.
    Mr. Ballenger. Without objection.
    Mr. Ballenger. Mr. Brady.
    Mr. Brady. Thank you, Mr. Chairman. Thank you, Mr. Anderson 
for being here. I have an original question I would like to 
ask, but just following that line of questioning, is there, in 
your opinion, any one bumper sticker size solution to the 
issues of illegal immigration, the environment and drug 
trafficking?
    Mr. Anderson. I do not want to be labeled as one who says 
democracy is the solution to everything, but I think that is a 
darn good start and building the foundations of a democracy in 
which all the people, no matter who they are, feel that their 
human rights are protected and feel that they have an 
opportunity to exercise their skills and entrepreneurial drive 
to participate in the economy and educate their children. It 
seems to me that the kinds of institutions we can help build in 
a democracy is long term.
    Mr. Bereuter. As developing countries start to shift a 
little more away from aid and toward seeking more trade with 
us, do you think they do that as part of a strategy to make 
themselves more stable and to try to encourage democracies in 
certain areas--perhaps to replace narco-trafficking economies 
with real private sector jobs for themselves, for example?
    Mr. Anderson. I think people are beginning to realize that 
our system--our economic system and our political system, which 
are multi-party, liberal, democratic and a free market--that 
our system works better than anything else anybody in the world 
has tried in our lifetimes.
    Mr. Bereuter. Thank you. Here is my original question. You 
have spent a great deal of time striving to make AID assistance 
efficient and targeted, stretching it as far as it can go. In 
the past, universities have played a valuable role and leading 
role in U.S. assistance. There is every reason to believe that 
they can do more for us in the future, but, in the past 5 years 
or so, the number of AID grants and contract through 
universities fell significantly--almost 63 percent. Is there a 
reason why USAID has reduced its reliance on these university 
resources in providing this assistance?
    Mr. Anderson. If there is a reason--and there is always a 
reason--I am not sure what it is. I realized some time back 
after presidents of a number of the land grant universities 
came to see me to talk, principally about agriculture. Then the 
discussion expanded because they are all interested. They do 
other things and there are other issues that they would like to 
be involved in around the world. I think that, if what we do is 
transfer American know how, experience, and democratic values, 
the repository for a lot of that is in universities like in 
your State and mine. It seems to me that we should have more 
participation of universities and colleges in America, not 
less.
    I am real proud of the participation that we have now, both 
in agricultural research and in all kinds of things that 
American universities do. If I had a list and a big board of 
all the things that universities do, funded at least, in part, 
by USAID around the world, it would be a very large list, but 
it should be larger.
    I am not sure why university contracts and grants have 
declined, although it may be the more aggressive pursuers of 
USAID dollars have sort of beat them out, as it were. That is a 
possibility, but I think we should do more at the university 
level.
    Mr. Bereuter. I do too. I know that our office and yours 
have been working on some revisions to Title XII that would 
create better linkages between international research, 
development, and trade. The whole goal, obviously, is to tie in 
what the Federal Government is doing, what state programs are 
doing in trade and research development, and to bring the 
resources of the universities to bear as well. Do you regard 
those linkages, I guess as I do, as promising and perhaps very 
useful?
    Mr. Anderson. I do, absolutely. The linkages within the 
Title XII universities with agribusiness are very promising and 
I think there is a real future for it. We are going to continue 
to work with you and your staff.
    Mr. Brady. Thank you, Mr. Anderson.
    Mr. Gilman [presiding]. Thank you, Mr. Brady. Mr. 
Faleomavaega.
    Mr. Faleomavaega. Thank you, Mr. Chairman. I want to 
welcome personally, Ambassador Anderson, and now the Director 
of USAID. I think our President could not have selected a more 
qualified and more sensitive person to take such great 
responsibility for providing for the services that are needed 
by so many people around the world.
    I am not a mathematician, but I am just curious, out of a 
$1.7 trillion budget, how much is $7 billion out of that? Do we 
have any mathematicians that can give us an idea?
    Mr. Anderson. I have been told that our USAID portion is 
one half of 1 percent of the Federal budget.
    Mr. Faleomavaega. I am curious because I think Japan, their 
foreign assistance program is well over $100 billion a year and 
they seem to be getting all kinds of credit for being the true 
humanitarian to the world and we are getting all kinds of 
criticism, saying that this country is not a humanitarian 
country with a $7 billion budget.
    But I am curious also, out of the International Monetary 
Fund, how much are we contributing to that? That does provide 
assistance in the same similar fashion as what AID is doing. I 
am also curious what percentage we provide in the World Bank 
and its activities and I think my good friend, Mr. Sherman, has 
stated earlier hardly anything is mentioned about the fact that 
we spend well over $150 billion alone just to maintain the sea 
lanes and the Asian Pacific security and nobody ever talks 
about in terms of our contributions to peace.
    I am just curious, Mr. Anderson, about the $7 billion 
allocation. Is there a certain formula that you go through in 
saying what is best for Africa this year, what is good for 
Asia, what is good for Latin America? Do you do it by 
responding to the crises and the needs at a given time or is 
there a certain allocation provisions that the State Department 
goes through in providing for this breakdown of the $7 billion 
that we give you?
    Mr. Anderson. There is not one formula. We look at several 
factors. One is our foreign policy objectives. So part of this 
budget, a large part of it is spent in the Middle East, for 
example. There are obvious foreign policy considerations there.
    Also, the need of the country is considered, and finally, 
what we believe to be and judge to be our own ability to be 
effective in that particular situation is considered. If a 
country were one which had the need and it was also a foreign 
policy priority, but its government was so weak or corrupt or 
simply resistant to change, then we would consider these 
matters in our determination.
    Mr. Faleomavaega. One of the serious concerns that I have, 
Mr. Ambassador, it was something that Mr. Brady alluded 
earlier. We currently have about 500,000 foreign students from 
all over the world that attend American universities and 
colleges which I think is says well of our Nation's educational 
institutions. One of the things that I sensed in my experience 
in visiting some of these countries, not the industrialized 
countries, not the countries where we have our Fulbrights and 
all this exchange thing, I am talking about Third World 
countries that are really poor. The thing that I am very 
concerned about is that in the sense that I get in visiting 
some of these poor countries that they are not just hungry for 
education. They are starving for education and I am just 
curious, if AID can seriously address opportunities not from 
countries that have the means, I am talking about countries 
that really are dirt poor and has AID given any consideration 
for the brightest students, not students of politicians and 
prime ministers of the political leadership, students who come 
from villages and the outward country. But if they have the 
intelligence should they be given opportunities to get a good 
education here in this country, is AID seriously looking into 
these kinds of opportunities for these Third World countries? 
Because I believe if we literally believed the idea that not 
just giving a fish to a man each day, but we should him how to 
fish. I hear this how many years and we go through this ritual 
every year, Mr. Ambassador, never ending. We keep pumping in $7 
billion here, $7 billion there, but in terms of results, in 
terms of providing education for those who could be, could make 
the difference by bringing them to this country. I am talking 
about the industrialized. I am talking about Third World 
countries.
    Is your office looking into providing opportunities for 
students who could some day or could well be a big help to 
those countries simply by education?
    Mr. Anderson. Yes, we are. Oftentimes as we meet leaders 
and foreign ministers and prime ministers and ministers of 
agriculture in foreign countries, we learn that they were 
educated at Texas A&M, Tulane, LSU and other universities in 
the United States. I think we should continue that education, 
but it is expensive to bring one person from a developing 
country here for 4 years and then for them to go back. It is 
not an inexpensive thing. It is an investment in the future. 
Also we really focus a lot of our efforts on primary education, 
and to a lesser extent secondary education in these developing 
countries. We believe that yes, the leadership certainly does 
need to be educated, well educated, even in the U.S., but as 
important or even more important is the education of large 
numbers of the young boys and girls in their countries. That is 
where really the USAID's focus is and that is what our 
distinction is in the field of education.
    Mr. Gilman. The gentleman time has expired.
    Mr. Faleomavaega. Thank you, Mr. Chairman.
    Mr. Gilman. Mr. Houghton.
    Mr. Houghton. Thank you, Mr. Chairman. Good to see you, Mr. 
Anderson.
    Mr. Anderson. Nice to see you.
    Mr. Houghton. I just have one question. Do you know the 
program called ATLAS? What it is, it is a program which 
involves funds which the African American Institute is using 
for the training and the education of Africans and I guess the 
worry that I would have, having been associated with that 
Institute and having a lot of respect for what they have done 
is I think it may be, the effort may be to merge it in with 
other programs and therefore not earmark it for African 
training and education and you may not know about and if you do 
not, fine, I would be interested in your answer, ultimately, if 
you want to send me a letter.
    Mr. Anderson. I would prefer to send you a letter. I have 
heard of ATLAS and when you mentioned education, it rings a 
bell, but I do not know enough----
    Mr. Houghton. They do good work, but the most important 
thing is that it directs educational funding for Africans and 
does not just go into a general pool. If you could let me know, 
I would appreciate it. Thank you very much.
    Mr. Anderson. I will.
    Mr. Houghton. Thank you very much.
    Mr. Anderson. Thank you, Mr. Houghton.
    Mr. Gilman. Again, I remind our Members in a few minutes we 
will be taking up H.R. 3822, the Oil Price Reduction Act.
    With regard to our prior discussion, Mr. Gejdenson raised 
the problem about the holds that we had on Haiti. The staff now 
informs me that the holds on assistance to Haiti, TN92 and 
TN100 for food security and for youth at risk were released by 
my staff verbally several months ago. Apparently, that 
information has not reached the Administrator and I asked USAID 
to make note of this on our release request.
    I am also releasing my hold on TN92. Hurricane Georges 
Recovery Program, a bridge project that had gone along much too 
slowly, but I would ask the Administrator to report to our 
Committee how many more of these infrastructure programs are 
slowly making their way through AID's procurement process? We 
found that there was over a year's delay with the bridge 
project in Haiti and that is why we put a hold on it because 
they were not progressing.
    With regard to TN395 on the rule of law, we are going to 
continue our hold. There is no sign that the Haitian government 
has the will to cooperate with us on judicial reform. The 
Haitian Justice Minister's statements disparaging our USAID 
Mission Director in Haiti are certainly not acceptable. I 
understand that Senator Leahy also has placed a hold on this 
notification for similar reasons and I just wanted to clarify.
    Mr. Gejdenson. Would the gentleman yield?
    Mr. Gilman. Mr. Gejdenson.
    Mr. Gejdenson. I would just thank the Chairman for 
releasing the three items and particularly the speed with which 
he has done that.
    Mr. Gilman. Thank you, Mr. Gejdenson. We will now proceed 
with 3822.
    Mr. Administrator, thank you very much for being with us 
and that portion of the hearing is now--oh yes, Mr. Campbell?
    Mr. Campbell. Thanks, Mr. Chairman. Just a quick comment to 
say I applaud your work. I have had the chance to see it up 
close in Africa and I want to do all I can to encourage it. I 
will have the chance, hopefully, to get to know you a little 
bit better, but as for now I just did not want this opportunity 
to pass without saying Godspeed and may you continue to help 
the poorest people on earth.
    Mr. Anderson. Thank you.
    Mr. Campbell. A specific policy priority of mine which 
might be of interest to you is to get more assistance in clean 
water and child inoculations. We spend in Africa for democracy 
building and whereas I am not saying negative things about 
that. I am saying that measurable results I have got to say are 
more likely in the first two categories, clean water and 
inoculating children than measuring the number of opponents to 
Canu in Kenya for example, or developing multi-party democracy 
in Uganda might be ever able to be measured.
    So I do not need a response. You are welcome to give one. I 
yield to you as much time as I have left to hear it, but I just 
wanted to convey to you my thanks, my encouragement and the 
slight point of view regarding priority.
    Mr. Anderson. Thank you, Mr. Campbell. I would like to say 
just briefly some things I said earlier, I think before you 
came in, about democracy. The results are certainly more easily 
measured in the number of immunizations, for example, versus 
how multi-party democracy is progressing in Uganda. But I think 
in the long term, and it is a long term investment, building 
democracy is important.
    Also, concerning the clean water, I think the citizens 
really are, in a functioning democracy as we know it, the ones 
that will demand of their government cleaner water, whereas now 
it is difficult for them to do that. But I agree, and we are 
working on the clean water and the other areas as well.
    Mr. Campbell. Thank you. It is a very thoughtful response 
and maybe I have a slightly different priority. Now you know 
it, but you run the Agency, I do not and I applaud your 
response.
    Mr. Anderson. Thank you, Mr. Campbell.
    Mr. Gilman. Thank you, Mr. Director.
    That portion of our meeting is completed. Thank you for 
being with us.
    [Whereupon, at 11:57 a.m. the Committee was adjourned.]
      
=======================================================================




                            A P P E N D I X

                             March 15, 2000

=======================================================================


    <GRAPHIC NOT AVAILABLE IN TIFF FORMAT>
</pre></body></html>
